<html>
<title> - NOMINATION OF JOHN P. HEWKO TO BE ASSISTANT SECRETARY OF TRANSPORTATION</title>
<body><pre>[Senate Hearing 110-1217]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 110-1217

 
                NOMINATION OF JOHN P. HEWKO TO BE 
              ASSISTANT SECRETARY OF TRANSPORTATION
=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 29, 2008

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation





                  U.S. GOVERNMENT PRINTING OFFICE
80-090                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         KAY BAILEY HUTCHISON, Texas
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            GORDON H. SMITH, Oregon
BILL NELSON, Florida                 JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
FRANK R. LAUTENBERG, New Jersey      JIM DeMINT, South Carolina
MARK PRYOR, Arkansas                 DAVID VITTER, Louisiana
THOMAS R. CARPER, Delaware           JOHN THUNE, South Dakota
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 29, 2008....................................     1
Statement of Senator Inouye......................................     1
Statement of Senator Stevens.....................................     1

                               Witnesses

Hewko, John P., Nominee to be Assistant Secretary for Aviation 
  and International Affairs, Department of Transportation........     2
    Biographical information.....................................     4


NOMINATION OF JOHN P. HEWKO TO BE ASSISTANT SECRETARY OF TRANSPORTATION

                              ----------                              


                         TUESDAY, JULY 29, 2008

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Daniel K. 
Inouye, Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. Mr. Hewko, I thank you very much for 
appearing before us today to consider your nomination to become 
Assistant Secretary for Aviation and International Affairs, 
United States Department of Transportation. We look forward to 
learning about your views on relevant issues and how your past 
experiences have prepared you to live up to the job.
    The DOT, as you know, Mr. Hewko, faces significant 
challenges in ensuring our transportation system operates 
swiftly and safely and efficiently. As the Assistant Secretary 
for Aviation and International Affairs, you will be directly 
involved in three policy issues that are of special concern to 
us--the implementation of slot auctions in New York City 
airports, the Essential Air Service Program, and the ongoing 
Open Skies negotiations between the United States and the 
European Union.
    And in dealing with these issues, we expect you to work 
closely and communicate clearly with this Committee because I 
believe we must work together to find the best path for both 
the White House and the legislative branch. A good relationship 
between Congress and DOT is vital if we are going to find 
solutions to these challenges and improve the quality of our 
transportation system.
    So I look forward to listening to your testimony. And may I 
now call upon the Vice Chairman of the Committee, Mr. Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Mr. Chairman, thank you very much for 
holding this hearing.
    I think this vacancy should be filled as quickly as 
possible. I don't think I need to mention to our witness that 
my state depends upon air transportation more than any other 
state in the union.
    The Chairman. Other than Hawaii.
    [Laughter.]
    Senator Stevens. Well, I even challenge that, Mr. Chairman, 
because we have 241 villages, 70 percent of our areas can be 
reached only by air year round. I think you have more 
passengers than we do, obviously. It is much easier to go to 
the sun country than it is to the snow country.
    But as a general problem, our state is different. One out 
of every 58 people in our state is a pilot. We have 6 planes 
for every 10 pilots. We have more general aviation per capita 
than, I think, anywhere in the world, and yet we have to rely 
upon this type of transportation, the unscheduled planes that 
fly food to our villages, and medical service. They deliver 
babies. They do every single thing that taxis and buses and 
trains do in what we call the ``South 48.''
    So I think rural air service is absolutely essential to our 
State, and I hope you have been to Alaska. If you haven't, I 
want to invite you to come to Alaska and really see. We 
pioneered Capstone. We pioneered changes in the air system. We 
have proven the new systems. If they can work in Alaska, they 
will work anywhere in the United States.
    So we are proud to be part of that activity of proving new 
technology, and we want to hasten the advent of new technology. 
But we want to preserve the ability to continue to have these 
small aircraft fly and fly safely for our people.
    So I look forward to working with you, and I really thank 
the Chairman for having this hearing. I do hope this is not one 
of the nominations that will be held up. I think that it is 
essential that that one spot that you will occupy be filled as 
quickly as possible.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Before we proceed, Mr. Hewko, our apologies to you. I was 
just advised that we called you out of vacation. So your family 
must be not quite happy about it, but we will make it up to 
them.
    And you have your parents here. Why don't you present them 
for the record?
    Mr. Hewko. Thank you very much.
    Mr. Chairman, I would like to acknowledge my parents, 
Lubomyr and Natalie Hewko, who traveled from Detroit to be here 
today. And I would also like to say hello to my wife, 
Margarita, and my daughter, Maria, who weren't able to come 
today, but are hopefully watching the proceedings by Internet 
in Utah, and to thank my colleagues from the Millennium 
Challenge Corporation for having joined me here this morning.
    The Chairman. Please proceed, sir.

 STATEMENT OF JOHN P. HEWKO, NOMINEE TO BE ASSISTANT SECRETARY 
            FOR AVIATION AND INTERNATIONAL AFFAIRS, 
                  DEPARTMENT OF TRANSPORTATION

    Mr. Hewko. Chairman Inouye, Vice Chairman Stevens, and 
Members of the Committee, thank you for the opportunity to 
appear before you today as you consider my nomination to be 
Assistant Secretary of Transportation for Aviation and 
International Affairs at the Department of Transportation. It 
is a great honor to be asked by President Bush and Secretary 
Peters to serve in this important position.
    If confirmed, I look forward to working closely with the 
Members of this Committee and your staffs in addressing the 
many crucial aviation and international transportation issues 
facing the United States today.
    I would like publicly to thank and acknowledge my wife, 
Margarita, and daughter, Maria, and my siblings Marc and 
Annetta Hewko. Unfortunately, they are unable to be here today.
    I would also like to recognize my parents, Lubomyr and 
Natalie Hewko, who came to this country after the Second World 
War from Ukraine by way of displaced persons refugee camps in 
Bavaria. Their experiences, particularly those under Stalin's 
Communism and Hitler's Nazism, have given me a keen 
appreciation of the extraordinary country we live in and of the 
importance of freedom, democracy, hard work, and dedication. 
This appreciation and a desire to give back to the country that 
opened its arms to my parents has motivated my interest in 
public service.
    If confirmed, there are a number of skills that I would 
bring to this position. I have a very strong international 
background, having spent many years living and working outside 
the United States. In my current position at the Millennium 
Challenge Corporation, I have primary responsibility for 
negotiating MCC's foreign assistance agreements with 26 
countries in Africa, Asia, Latin America, the Middle East, and 
the former Soviet Union.
    Most of these agreements contain significant transportation 
projects, and the experience of negotiating them underscored to 
me the critical importance of the transportation infrastructure 
to a country's economic prosperity.
    If confirmed, I will also bring a strong management 
background to the position. This management experience will be 
particularly important during the upcoming transition to the 
new administration. Finally, as someone from outside the 
aviation sector, I would bring a fresh perspective to many of 
the issues currently facing the industry.
    Although the term of this administration will soon end, 
there still remain many important issues that need to be 
addressed. The state of the domestic air transportation 
industry, resulting from the rising cost of fuel and how the 
industry is responding, will require significant attention. A 
number of smaller, yet very important programs, such as 
Essential Air Service, will need continued and effective 
stewardship.
    I would hope to focus on a number of the Open Skies 
Agreements currently being negotiated, with the goal of 
increasing access for American carriers and communities to 
international markets. Finally, it is important to ensure a 
smooth, efficient, and orderly transition to the new 
administration in January 2009.
    Mr. Chairman, if confirmed, I look forward to working with 
you and the Members of Congress on these and other critical 
issues. I would come to this position with an open mind and a 
keen desire to find solutions to problems that are fair and 
take into account the concerns of the affected stakeholders and 
the best interests of the American people.
    Again, I am grateful for the opportunity to appear before 
you today as you consider my nomination, and I look forward to 
answering any questions you may have.
    [The biographical information of Mr. Hewko follows:]

                      a. biographical information
    1. Name (Include any former names or nicknames used): John Paul 
Hewko.
    2. Position to which nominated: Assistant Secretary of 
Transportation (Aviation and International Affairs).
    3. Date of Nomination: April 2, 2008.
    4. Address (List current place of residence and office addresses):

        Home: Information not released to the public.
        Office: 1875 15th Street, NW, Washington, D.C. 20005.

    5. Date and Place of Birth: November 18, 1957; Detroit, Michigan.
    6. Provide the name, position, and place of employment for your 
spouse (if married) and the names and ages of your children (including 
stepchildren and children by a previous marriage).

        Margarita Eugenia Hewko, Homemaker (spouse); Maria Emilia Hewko 
        (15), (daughter).

    7. List all college and graduate degrees. Provide year and school 
attended.

        Hamilton College, A.B Government and Soviet Studies--1975-1979.

        University of Oxford, M. Litt. Modern History--1979-1981.

        Harvard University, J.D.--1982-1985.

    8. List all post-undergraduate employment, and highlight all 
management-level jobs held and any non-managerial jobs that relate to 
the position for which you are nominated.

    Post-undergraduate Employment

        Dino's Restaurant--Lakeside, Ohio--Bartender, 6/79-8/79.

        Colegio Sworn--Buenos Aires, Argentina--English Teacher, 2/82-
        8/82.

        Bustamante & Crespo--Quito, Ecuador--Summer Associate, 6/83-8/
        83.

        Bryan & Gonzalez--Juarez and Mexico City, Mexico--Summer 
        Associate, 8/83-9/83.

        Gibson, Dunn & Crutcher--New York, New York--Summer Associate, 
        6/84-
        8/84.

        Hornsby & Whisenand--Miami, Florida--Summer Associate, 8/84-9/
        84.

        Gibson, Dunn & Crutcher--Washington, D.C.--Summer Associate, 6/
        85-7/85.

        Dickinson, Wright, Moon et al.--Detroit, Michigan--Summer 
        Associate, 7/85-
        9/85.

        Klein & Mairal--Buenos Aires, Argentina--Foreign Associate, 
        1985-86.

        Pinheiro Neto--Sao Paulo, Brazil--Foreign Associate, 1987.

        Gibson, Dunn & Crutcher--Washington, D.C.--Associate, 1987-89.

        Baker & McKenzie--Moscow, USSR--Associate, 1989-91.

        Georgetown University Law Center--Washington, D.C.--Adjunct 
        Professor of Law, 2001-03.

        Carnegie Endowment for International Peace--Washington, D.C.--
        Visiting Scholar, 2001-02.

    Management Level Positions

        Executive Secretary to the International Advisory Council to 
        the Ukrainian Parliament--Kyiv, Ukraine--1991-92.

        Baker & McKenzie--Kyiv, Ukraine--Founding and Managing Partner, 
        1992-96.

        Baker & McKenzie--Prague, Czech Republic--Managing Partner, 
        1996-2001.

        Baker & McKenzie--Washington, D.C.--Partner, 2002-04.

        Millennium Challenge Corporation--Washington, D.C.--Vice-
        President for Country Relations/Operations/Compact Development, 
        2004-present.

    9. Attach a copy of your resume. A copy is attached [not 
published].
    10. List any advisory, consultative, honorary, or other part-time 
service or positions with Federal, State, or local governments, other 
than those listed above, within the last 5 years: None.
    11. List all positions held as an officer, director, trustee, 
partner, proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, or other business, enterprise, 
educational, or other institution within the last 5 years.

        The Hewko Family Charitable Foundation (Board Member; 
        Treasurer; Secretary) (2003-present).

        The Ukrainian Catholic University (Member of Board of Trustees 
        (Senate)) (2007-present).

        The Leavitt Institute for International Cooperation (Member of 
        Board) (2006-present).

        Western Reserve Academy (Member of Board of Visitors) (2002-
        present).

        The Washington Group (former Member of Board) (2002-2005).

        Altemus Foundation (former Member of Board) (2001-2005).

        Baker & McKenzie (Partner) (1992-2004); As a partner with Baker 
        & McKenzie, I provided legal advice to a number of the firm's 
        clients.

    12. Please list each membership you have had during the past 10 
years or currently hold with any civic, social, charitable, 
educational, political, professional, fraternal, benevolent or 
religious organization, private club, or other membership organization. 
Include dates of membership and any positions you have held with any 
organization. Please note whether any such club or organization 
restricts membership on the basis of sex, race, color, religion, 
national origin, age, or handicap.

        D.C. Bar Association (1988-present).

        PA Bar Association (1987-2005).

        American Bar Association (no longer member; cannot recall exact 
        dates of membership).

        Ukrainian-American Bar Association (no longer member; cannot 
        recall exact dates of membership).

        Association of Marshall Scholars (2002-present).

        Holy Trinity Church--Georgetown (parishioner) (2001-present).

        St. Thomas Catholic Church--Prague (parishioner) (1996-2001).

    13. Have you ever been a candidate for and/or held a public office 
(elected, non-elected, or appointed)? If so, indicate whether any 
campaign has any outstanding debt, the amount, and whether you are 
personally liable for that debt: No.
    14. Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $500 or more for the past 10 years. Also list all offices you 
have held with, and services rendered to, a state or national political 
party or election committee during the same period.

        David Leavitt for Congress--$1,000--3/10/08.

        David Leavitt for Congress--$1,000--12/10/07.

        Mitt Romney for President--$1,000--3/2/07.

        George W. Bush for President--$2,000--6/18/03.

        Marc Nuttle for Congress--$1,000--8/5/02.

    15. List all scholarships, fellowships, honorary degrees, honorary 
society memberships, military medals, and any other special recognition 
for outstanding service or achievements.

        Marshall Scholarship to study at Oxford--1979-1981.
        Phi Beta Kappa.

    16. Please list each book, article, column, or publication you have 
authored, individually or with others. Also list any speeches that you 
have given on topics relevant to the position for which you have been 
nominated. Do not attach copies of these publications unless otherwise 
instructed.

        ``Foreign Direct Investment--Does the Rule of Law Matter?'', 
        Carnegie Endowment for International Peace, Working Paper No. 
        26, April 2002.

        ``New Czech Commercial Code Amendments'', BNA's Eastern Europe 
        Reporter, March 2001.

        ``New Soviet Tax Legislation'', Newsletter of the International 
        Law Section of the Texas Bar, October 1990.

        ``Bolivia: A Successful Debt Relief Programme'', The Economist 
        Publications, 1989.

        ``Argentine Laws on Foreign Investment and the Transfer of 
        Technology'', The International Lawyer, Spring 1987.

        ``Las Empresas Conjuntas y la Legislacion de Defensa de la 
        Competencia'', Revista del Derecho Comercial y de las 
        Obligaciones, Buenos Aires, October 1986.

        ``Haiku'', The Washington Post, October 9, 2005.

        ``Keep the U.S. English Speaking'', The Christian Science 
        Monitor, December 3, 2002.

        ``Lessons for Cuba after Communism'', The Christian Science 
        Monitor, June 24, 2002.

        ``O'Neill/Bono Road Show Offers Golden Opportunity'', The Wall 
        Street Journal, June 5, 2002 (Letter to the Editor).

        ``Private Sector vs. Foreign Aid'', The Washington Times, June 
        1, 2002 (Letter to the Editor).

        ``Development Role of the Private Sector'', The Times (of 
        London), May 14, 2002 (Letter to the Editor).

        ``Good Catholics, Good Priests--and Married'', The Washington 
        Post, March 23, 2002.

        ``No Need to Cry for Argentina'' The Boston Globe, February 26, 
        2002.

        ``Soviets' Nuclear Question'', The Christian Science Monitor, 
        June 12, 1991.

        ``The Fire of Ukrainian Unity Starts to Spread'', The Wall 
        Street Journal (Europe), August 23, 1990.

        ``Bolivia's Restructuring Deserves More Than a Pat on the 
        Back'', The Wall Street Journal, April 28, 1989.

        ``A Yankee Attorney Shakes His Booty at Carnival'', The Wall 
        Street Journal, February 23, 1989.

        ``The Economic and Political Awakening of Argentina's 
        Peronists'', The Wall Street Journal, March 1, 1988.

        ``Brazil on Argentina's Heels'', The Christian Science Monitor, 
        January 21, 1988.

        ``Peronist Reformers Keep the Focus on Democracy'', Los Angeles 
        Times, September 11, 1987.

        ``Aid to CIS Countries: Waste Not, Want Not'', The Ukrainian 
        Weekly, April 26, 1992.

        ``Western Delays in Recognizing Ukraine Based on Unfounded 
        Arguments'', The Ukrainian Weekly, December 1, 1991.

        ``The End of the Soviet Union'', The Ukrainian Weekly, 
        September 1, 1991.

        ``Bush Visit to Kiev Raises Stakes in Debate between Moscow and 
        Republics'', The Ukrainian Weekly, August 4, 1991.

        ``Proliferation by Disintegration or an End to the Arms 
        Race?'', The Ukrainian Weekly, May 26, 1991.

        ``Is the West Ready to Respond when the USSR Disintegrates?'', 
        The Ukrainian Weekly, October 28, 1990.

        ``El Futuro del Brasil es Motivo de Pesimismo'', La Nacion, 
        February 27, 1988.

        ``Nos EUA, o Futebol Agora e Esporte de `Yuppies','' Folha de 
        S. Paulo, December 27, 1987.

        ``Legendary Stadiums'', Soccer America, February 5, 1987.

        ``As Licoes da Moratoria da Costa Rica'', O Estado de S. Paulo, 
        March 29, 1987.

        ``Africa--Um Caminhao Rasga os Mundos da Africa'' Folha de S. 
        Paulo, March 19, 1987.

        ``A Praia Carioca Segundo um Turista'', Jornal do Brasil, 
        December 21, 1986.

        ``Por Mirar el Pasado'', Somos, Buenos Aires, August 27, 1986.

        ``Argentina's Victory'', Soccer America, July 24, 1986.

        ``El Imperialismo de los EE.UU. Visto por un Norteamericano'', 
        Ambito Financiero, Buenos Aires, July 2, 1986.

        ``Los Argentinos Vistos por un Extranjero'', Somos, Buenos 
        Aires, April 23, 1986.

        ``America's Surprise: Falklands Conflict Pitted Essentially 
        `European Nations' '', The Oakland Press, August 29, 1982.

    I have given over 100 speeches and presentations through the years 
in the U.S. and abroad. The topics have generally fallen into the 
following categories for:

        Speeches related to MCC or official USG matters.

  <bullet> Several commencement speeches at universities.

  <bullet> Doing business in the former Soviet Union.

  <bullet> Doing business in the Russia, Ukraine and the Czech 
        Republic.

  <bullet> Doing business in emerging markets.

  <bullet> Speeches describing my travel experiences.

  <bullet> Speeches to foreign audiences on the U.S. political system.

  <bullet> Speeches on foreign affairs, particularly with respect to 
        the former Soviet Union and Latin America.

  <bullet> Commentary on foreign affairs on television news and talk 
        shows.

  <bullet> Participation in panel discussions on legal and foreign 
        affairs issues.

  <bullet> Lectures at universities on legal and foreign affairs 
        issues.

    17. Please identify each instance in which you have testified 
orally or in writing before Congress in a governmental or non-
governmental capacity and specify the date and subject matter of each 
testimony: None.
    18. Given the current mission, major programs, and major 
operational objectives of the department/agency to which you have been 
nominated, what in your background or employment experience do you 
believe affirmatively qualifies you for appointment to the position for 
which you have been nominated, and why do you wish to serve in that 
position?
    I returned to the United States in 2001 after many years abroad 
because I wanted to become involved in public service. My parents 
immigrated to the United States after the Second World War and I very 
much wished to give back to the country that was so open and hospitable 
to my parents and family. I have been very fortunate to have had the 
opportunity to serve for the past 4 years as a senior executive with 
the Millennium Challenge Corporation, a U.S. Government agency, and 
would be honored to be able to continue my public service, if 
confirmed, for this position.
    I believe that my strong management and extensive international 
experience in both the public and private sectors qualifies me for 
appointment to this position. Transportation infrastructure and systems 
are crucial to the growth and well-being of the U.S. economy. Many of 
the MCC Compacts that I negotiated with our partner countries include 
significant transportation related projects; this has further increased 
my interest in, and understanding of, transportation issues, 
particularly in the international context.
    19. What do you believe are your responsibilities, if confirmed, to 
ensure that the department/agency has proper management and accounting 
controls, and what experience do you have in managing a large 
organization?
    I have extensive management experience in both the public and 
private sectors. I was the founding and managing partner of the Baker & 
McKenzie office in Kyiv, Ukraine. In that capacity, I was responsible 
for starting a practice and office in a very difficult environment and 
had primary oversight for all aspects of office management: human 
resources, client development, associate training, financial and budget 
matters, billing, negotiation of office leases, government relations, 
etc. I was also the managing partner of the Baker & McKenzie Prague 
office where I was asked to revive a troubled office in a very 
competitive market. This position had managerial responsibilities 
similar to that of the Kyiv position, with the added complexity of 
having to terminate a large number of individuals and then to rebuild 
an office almost from the beginning.
    As a Vice President at the Millennium Challenge Corporation (MCC), 
I managed the largest department in the institution and was responsible 
for managing MCC's relationship with its 26 Compact eligible countries 
in Africa, Asia, the Middle East, Latin America and the former Soviet 
Union. My position at MCC requires significant foreign travel, 
extensive dealings with heads of state and senior foreign government 
officials, public outreach and participation in interagency policy 
discussions.
    20. What do you believe to be the top three challenges facing the 
department/agency, and why?

        (1) The agency's principal challenge is maintaining and 
        improving safety throughout the country's transportation 
        network. A focus on safety not only reduces transportation 
        related deaths and injuries, but instills public confidence in 
        the transportation system.

        (2) Addressing congestion in the transportation network is a 
        further challenge. U.S. economic growth, particularly in an era 
        when international trade is becoming increasingly important, 
        depends on an efficiently functioning transportation system. 
        Inefficient domestic and international freight movement, long 
        delays at airports and congestion on our Nation's highways 
        inhibit economic growth and affect negatively overall 
        prosperity in the United States.

        (3) The country's highway and air traffic infrastructure is 
        aging and in need of repair and renovation. Transportation 
        infrastructure is the backbone of the U.S. economy and it must 
        be maintained and upgraded to keep pace with population growth 
        and to permit the United States to compete effectively in an 
        increasingly global market.
                   b. potential conflicts of interest
    1. Describe all financial arrangements, deferred compensation 
agreements, and other continuing dealings with business associates, 
clients, or customers. Please include information related to retirement 
accounts: None.
    2. Do you have any commitments or agreements, formal or informal, 
to maintain employment, affiliation, or practice with any business, 
association or other organization during your appointment? If so, 
please explain: No.
    3. Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated: Please refer to the DOT 
General Counsel's opinion letter.
    4. Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated: None other than matters 
referenced within the DOT General Counsel's opinion letter.
    5. Describe any activity during the past 10 years in which you have 
been engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy: None.
    6. Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items: Please refer to the DOT General Counsel's legal opinion.
                            c. legal matters
    1. Have you ever been disciplined or cited for a breach of ethics 
by, or been the subject of a complaint to any court, administrative 
agency, professional association, disciplinary committee, or other 
professional group? If so, please explain: No.
    2. Have you ever been investigated, arrested, charged, or held by 
any Federal, State, or other law enforcement authority of any Federal, 
State, county, or municipal entity, other than for a minor traffic 
offense? If so, please explain: No.
    3. Have you or any business of which you are or were an officer 
ever been involved as a party in an administrative agency proceeding or 
civil litigation? If so, please explain: No.
    4. Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, please explain: No.
    5. Have you ever been accused, formally or informally, of sexual 
harassment or discrimination on the basis of sex, race, religion, or 
any other basis? If so, please explain: No.
    6. Please advise the Committee of any additional information, 
favorable or unfavorable, which you feel should be disclosed in 
connection with your nomination: None.
                     d. relationship with committee
    1. Will you ensure that your department/agency complies with 
deadlines for information set by Congressional committees? Yes.
    2. Will you ensure that your department/agency does whatever it can 
to protect Congressional witnesses and whistleblowers from reprisal for 
their testimony and disclosures? Yes.
    3. Will you cooperate in providing the Committee with requested 
witnesses, including technical experts and career employees, with 
firsthand knowledge of matters of interest to the Committee? Yes.
    4. Are you willing to appear and testify before any duly 
constituted committee of the Congress on such occasions as you may be 
reasonably requested to do so? Yes.

    The Chairman. I thank you very much, Mr. Hewko.
    I just have one question. In recent days, front pages have 
been covered with congestion in the skies and also near misses. 
Would the auction slots in New York and Newark ease this 
congestion?
    Mr. Hewko. Well, Senator, congestion is a significant and 
serious problem. Delays are a big problem in our system. They 
cost the economy billions of dollars each year, not to mention 
the inconveniences that consumers face in terms of missed 
holidays, weddings, delays at the airport.
    I know that the administration is attempting to increase 
capacity and efficiency, and my understanding is that the 
administration has proposed limited market-based mechanisms as 
a potential part of the solution to congestion in areas such as 
New York. I am not familiar with the details of the auction 
system. I do understand that it is opposed by the airlines and 
is a controversial measure.
    But if confirmed, I look forward to understanding this 
issue better, and if confirmed, I certainly would commit to 
working very closely with you on the various issues that these 
mechanisms give rise to.
    The Chairman. Thank you very much.
    Senator Stevens?
    Senator Stevens. Mr. Hewko, I have been reading your 
background, and I think that we should congratulate you for 
being willing to leave the very interesting position you have 
had to take on this very serious and difficult job. And I am 
interested in particular that you were a visiting scholar at 
the Carnegie Endowment for International Peace, your time that 
you spent overseas.
    I am sure you have seen the difference between traveling in 
Europe and traveling in the United States. I like to remind 
people that my State alone is larger than Italy, Germany, 
France, and Spain. What we have here, we are only one-fifth the 
size of the United States. So that is at least five times the 
area that Europe deals with on their daily transportation that 
we deal with, very complex mechanism, but one that has to be 
improved.
    New technology will give us the opportunity to decrease the 
spacing between these large planes that now land at better than 
100 miles an hour. And I do think that a person with your 
background will have the ability to take a look at this 
situation and see what can be done now.
    We get increasing complaints, I am sure you know, from the 
public, the traveling public as far as these delays and the 
failure to be able to handle some of the things that happen 
these days.
    Have you had a chance to be briefed as far as your 
activities as far as the transportation side of your job as 
compared to the international affairs side of your job?
    Mr. Hewko. Well, first of all, Senator, I would like to 
thank you for your kind invitation to visit your state. I have 
not had the pleasure of visiting Alaska, but I very much hope 
that during the course of my tenure in the job, I will be able 
to visit your State and experience firsthand the various 
transportation challenges that you have outlined.
    And I also share your concern about the congestion issue, 
and again, I very much appreciate the unique nature of Alaska 
and Hawaii as well, Mr. Chairman, when it comes to 
transportation issues.
    In terms of my briefings with the department, I have had 
several short meetings with staff there, and they have been 
very helpful in giving me a general sense of some of these 
issues, especially the issue that you just raised, Senator.
    And again, if confirmed, I look forward to understanding 
the issues better and to working very closely with you and your 
staff to try to come to some practical solutions to these very, 
very important problems.
    Senator Stevens. Well, how much do you feel that your task 
will involve international affairs as compared to domestic 
affairs?
    Mr. Hewko. Well, it is hard to say at this point because I 
have not had a chance to be in the job. But my understanding is 
that the portfolio includes aviation, but it also includes 
international transportation and trade issues. And given that 
my background is in the international area, I would certainly 
hope to devote a considerable amount of my energies to that 
area.
    But everything is important. I think all of the issues that 
this office will face merit attention--some, obviously, more 
than others. But I would anticipate a great deal of time spent, 
both on the aviation side of things and on the international 
side.
    Senator Stevens. Have you had any occasion to study the 
European systems of regulation of traffic as compared to ours?
    Mr. Hewko. Well, again, I don't come to this job with a 
strong aviation background, but I do understand that the staff 
at the department is extremely strong and has been looking at 
these issues for many years. I do have a good feel for the 
European system in general, having lived and worked in European 
countries for many years. And my overall impression is that in 
Europe, things are often a little bit more bureaucratic, a 
little more burdensome than in our system.
    But again, if confirmed, this is an issue that I would 
clearly want to get up to speed on and work closely with you 
and your staffs on.
    Senator Stevens. Well, they don't have as much general 
aviation traffic like we do, as I understand it. I do hope you 
will take a chance to learn something about that before you 
make judgments concerning the activities of rural general 
aviation and what it means to this country.
    That is why we would like to have you visit Alaska and see 
some of the places that small planes serve. They are the only 
form of transportation. Without that general aviation, there 
wouldn't be any transportation. In days gone by, it was the dog 
sled in summer and walking, literally walking--it was in the 
wintertime when my first partner walked from Nome to Fairbanks, 
when he wanted to move to Fairbanks.
    Now this is a changing country. We don't do that anymore. 
But we now rely on general aviation in such ways as I am 
becoming too redundant here and now, but I do hope that you 
will take time to understand general aviation before you make 
decisions that might affect us in the international area.
    Thank you very much, Mr. Chairman.
    The Chairman. I thank you very much.
    The record will show that Mr. Hewko has filed all the 
necessary documents, responded to all, and I think people 
should read your record. It is a very impressive one.
    Without objection, this matter will be referred to the full 
Committee on Thursday, and at that time, I am certain it will 
be approved and reported to the Senate.
    Congratulations, sir. And the hearing is adjourned.
    Mr. Hewko. Thank you, Mr. Chairman.
    [Whereupon, at 10:50 a.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
